                                                      Office of Inspector General
                                                     Corporation for National and
                                                              Community Service




          AGREED-UPON PROCEDURES OF
         CORPORATION FOR NATIONAL AND
       COMMUNITY SERVICE EDUCATION AWARD
               GRANT AWARDED TO
        UNITED STATES VETERANS INITIATIVE

               OIG REPORT NUMBER 08-04




               Office of Inspector General
              1201 New York Avenue, NW.
                 Washington, DC 20525




This report was issued to Corporation management on November 21, 2007. Under the
laws and regulations governing follow-up, the Corporation is to make final management
decisions on the report’s findings and recommendations no later than May 21, 2008, and
complete its corrective actions by November 21, 2008. Consequently, the reported
findings do not necessarily represent the final resolution of the issues presented.
                         OFFICE OF INSPECTOR GENERAL

                                      November 21, 2007


TO:            Kristin McSwain
               Director, AmeriCorps State*National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Carol Bates (signature on file)
               Assistant Inspector General for Audit

SUBJECT:       Report 08-04, Office of Inspector General (OIG) Agreed-Upon Procedures of
               Corporation for National and Community Service Grant Number
               03NDHCA001 Awarded to United States Veterans Initiative


Attached is the final report on our application of agreed-upon procedures to Grant Number
03NDHCA001 awarded by the Corporation to United States Veterans Initiative, (USVI).

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by May 21, 2008. Notice of final action is due by November 21, 2008.

If you have questions pertaining to this report, please call Stuart Axenfeld at 202-606-9360.


Attachment

cc:   Dwight Radcliff, Acting Chief Executive Officer, USVI
      Jerry Bridges, Chief Financial Officer
      William Anderson, Deputy Chief Financial Officer
      Sherry Blue, Audit Resolution Coordinator




                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                     202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                       Senior Corps   AmeriCorps   Learn and Serve America
                       OFFICE OF INSPECTOR GENERAL
                       AGREED-UPON PROCEDURES FOR
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                   EDUCATION AWARD GRANT AWARDED TO
                     UNITED STATES VETERANS INITIATIVE



                                 TABLE OF CONTENTS


Executive Summary……………………………………………………………………...                  1

Background ……………………………………………………………………………...                     1

Agreed-Upon Procedures Scope and Results…………………………………………….      2

Appendices

   A: Agreed-Upon Procedures
   B: USVI’s Response to Agreed-Upon Procedures Report
   C: Corporation’s Response to Agreed-Upon Procedures Report
                                      EXECUTIVE SUMMARY

We questioned $41,984 of the $253,600, or 16.5 percent, of United States Veterans Initiative’s
(USVI) grant reimbursements and $98,409 of education awards claimed due to noncompliance
with law, regulations and grant terms and conditions and reimbursed based on AmeriCorps
member enrollment in excess of actual member enrollment.


The following internal control findings are also addressed in this report:

1.     AmeriCorps member program requirements were not followed.

2.     Member contracts were signed after service began.

3.     Member timesheets did not support eligibility for education awards, and timesheet hours
       were not accurately recorded in the Corporation’s Web-Based Reporting System (WBRS).

4.     USVI improperly certified education awards for 14 members who left the program early.

5.     After the grant period was completed, USVI entered nine members into WBRS.


BACKGROUND

The National and Community Service Trust Act of 1993 established the Corporation for National
and Community Service (Corporation). The Corporation funds opportunities for Americans to
engage in service that fosters civic responsibility, strengthens communities, and provides
educational opportunities for those who make a substantial commitment to service. The
AmeriCorps program is one of the Corporation’s three major service initiatives. Approximately
three-quarters of all AmeriCorps grant funding goes to governor-appointed State service
commissions, which award competitive grants to nonprofit groups that then recruit AmeriCorps
members to respond to local needs. The Corporation distributes most of the balance of its
funding directly to multi-State and national organizations such as USVI through a competitive
grant process.

AmeriCorps Education Award Program (EAP) grants are fixed-amount awards. In determining
the amount of these awards, the Corporation considers the number of “full-time equivalents”
(FTEs) that the grantee agrees to enroll. One FTE equals a full-time education award for which a
minimum of 1,700 hours of service has to be completed. The Corporation sets a limit on the
grant support per FTE. That amount has varied over the years due to program funding levels.

Because EAP awards are based on fixed amounts rather than incurred costs, grantees are not
required to document their expenditures or submit Financial Status Reports. However, EAP
grantees must still comply with laws, regulations and grant provisions.



                                                 1
AGREED-UPON PROCEDURES SCOPE AND RESULTS

We performed the agreed-upon procedures listed in Appendix A for USVI’s Education Award-
Only grant for Program Years (PYs) 2000-2001, 2001-2002 and 2002-2003.

We conducted our field work from January to May 2007 and also considered information
provided after the June 1, 2007, exit conference. Our agreed-upon procedures engagement
covered grant activity from the date of the award through August 31, 2004. We conducted our
agreed-upon procedures engagement in accordance with generally accepted government auditing
standards, issued by the Comptroller General of the United States.

The Office of Inspector General audited USVI’s grant No. 03NDHCA001 and issued audit report
number 07-21, dated September 10, 2007, that presented many of the same issues described
above. For each of the issues, the Corporation should perform on-site monitoring or other
oversight methods to ensure implementation of corrective actions and adherence to grant
provisions and regulations. The USVI policies and procedures need to be tested by the
Corporation to verify the controls are effective.

This report pertains only to the performance of agreed-upon procedures to determine if funds
reimbursed from the Corporation to USVI were allowable, and whether USVI complied with
applicable Federal laws, regulations, and the terms and conditions set forth in the grant. We did
not perform an examination on the subject matter of this report, the objective of which would be
to express an opinion. Accordingly, we do not express such an opinion. Had we performed
additional procedures, other reportable matters might have come to our attention.

Results of Agreed-Upon Procedures

            Cost Category             Claimed           Questioned             Notes
            Drawdown                  $ 253,600         $ 41,984                 1
            Education Awards               0              98,409                 2
            Total                     $ 253,600         $140,393



1.     Excess Drawdowns USVI drawdowns were excessive due to its inability to enroll the
       number of members included in the grant budget. The excessive drawdown is computed
       below, with the members enrolled at the established grant amount for each member
       enrolled in the program:




                                               2
          Year         Enrollment    Required       Fixed Grant   Members     Total Amount of
                         Type         Hours         Amount Per    Enrolled    Reimbursement
                                                      Member                  and Questioned
                                                     (Note i)                    Overdraw
2000/01               Full-time        1700          $500.00         34               $ 17,000
2000/01               Half-time         900           264.71        123                 32,560
2000/01               Quarter-time      450           132.35         79                 10,456

2001/02 and 2002/03   Full-time        1700          $400.00        157               $62,800
2001/02 and 2002/03   Half-time         900           211.76        284                60,140
2001/02 and 2002/03   Quarter-time      450           105.88        265                28,058

Subtotal                                                                             $211,014
Pause Period Adj.                                                                         602
Subtotal                                                                             $211,616
Total Grant Amount                                                                    253,600
Amount Overdrawn                                                                     $ 41,984

i.   The grant terms state that USVI would be paid $500 in the Program Year 2000/01 and $400
     in PYs 2001/02 and 2002/03 for each eligible full-time member enrolled. For the half-time
     and quarter-time members, USVI was to be paid a percentage of the full-time fixed amount.
     For example, a half-time member was reimbursed at 900/1700 hours x $500 = $264.71.

On January 29, 2007, the Corporation’s Office of Grants Management issued a demand letter to
USVI for the $41,984. On March 27, 2007, USVI responded to the demand letter, requesting a
repayment plan for the $41,984.

USVI’s Response:

      USVI responded that it experienced recruiting challenges brought on by relocation of
program staff to Kentucky.

Auditors’ Comments:

      As noted above, the Corporation issued a demand letter for the amount overdrawn and
USVI has agreed to repay $41,984.




                                                3
2.     Education Awards. We questioned the following education awards:

Type                             Number of       Questioned
                                 Members      Education Awards     Reference
Ineligible Member - Employee          1       $ 5,505              Note a
Member Contract Issues                6         7,087              Note b
Insufficient Hours                    6        18,900              Note c
Inadequate Documentation of                                        Note d
Compelling Personnel                 14         27,301
  Circumstances
Ineligible Members                    9         39,616             Note e
Total                                         $ 98,409

a.     AmeriCorps member requirements were not followed.

We found one member who was an employee of a USVI placement site and listed as having
earned an education award. We determined that the member was an employee based on an
interview of a staff member at the member’s operating site, and a review of his timesheet. The
computation of hours enabling this person to receive an education award duplicated his regular
employment hours. As a result, we question the $4,725 education award and $780 interest
forbearance.

This problem stems from USVI's approach in administering the grant, as well as its lack of clear
understanding of specific grant provisions.

AmeriCorps Education Award Program Provisions, Section B.6 - Eligibility, Recruitment, and
Selection, states in part:

       f. Member Classification. AmeriCorps members are not employees of the program or of
       the federal government. The definition of "participant" in the National and Community
       Service Act of 1990 as amended applies to AmeriCorps members. As such, "a participant
       (member) shall not be considered to be an employee of the program in which the
       participant (member) is enrolled". Moreover, members are not allowed to perform an
       employee's duties or otherwise displace employees.

b.     Member contracts were not signed before applicants started service.

We tested 51 member contracts and determined that, in six instances, the member contracts were
not signed before the member started service. Applicants become members only after signing the
contract; therefore service hours recorded before the contract is signed are not eligible to count
toward earning an education award.

In all six instances, service hours recorded subsequent to the contract signing date were
insufficient to warrant an education award. We therefore question the following education
awards:

                                                4
                     Contract      Contract     Questioned
                      Signed         Not        Education                    Notes
       Member          Late         Signed       Awards
                         X                       $2,362.50   Contract signed 5 months late.
             #1
             #2          X                            0      Contract signed 7 days late. Award
                                                             questioned in Note # a above.
             #3          X                            0      Contract signed 5 months late. Award
                                                             questioned in Note # c below.
             #4          X                            0      Contract signed 34 months late.
                                                             Award questioned in Note # e below.
             #5                       X           2,362.50   Contract not signed.
             #6          X                        2,362.50   Contract signed 3 months late.
           Total         5            1         $ 7,087.50


AmeriCorps Education Award Program Provisions, Section B.7.c., Training, Supervision and
Support, Member Contracts, requires members to sign contracts that stipulate responsibilities and
rights. Failure to sign member contracts that include all necessary stipulations could result in
members being unaware of their rights and responsibilities.

Section 8.d. (a) Terms of service, Members Enrollment Procedures, states that members are not
considered enrolled in the program until the contract is signed. Thus, service hours recorded
before signing the member contract should not be counted toward member education awards.

c.         Member timesheets did not support eligibility for education awards, and timesheet
           hours were not accurately recorded in the Corporation’s WBRS.

We tested 51 member contracts and determined that, in 6 instances, service hours recorded in
WBRS could not be supported. In one instance, a member recorded 25 hours in one day on the
timesheet because the member recorded the number of homeless veterans contacted as the daily
hours, rather than the number of hours spent serving veterans. USVI subsequently entered the
inflated hours amount in WBRS. We also noted other irregularities, including timesheets that
were reproduced with copied, and not original, signatures, as follows:

                      Signed       Questioned
                   After Service   Education                              Notes
 Member                Start       Amounts
      #1                 X          $2,362.50     Most timesheets were signed on 8/3/01
      #2                 X           4,725.00     Timesheets were 39 hours short of WBRS hours
      #3                 X           2,362.50     All timesheets contained copied signatures
      #4                 X           2,362.50     All timesheets contained copied signatures
      #5                 X           4,725.00     All of the timesheets were copied, only
                                                  the dates were changed
      #6                 X           2,362.50     Hours represented veterans contacted, not the number of
                                                  hours served
     Total               6         $18,900.00


                                                  5
Because timesheets for members were copied, did not document the hours served, and had other
errors, the eligibility of these members to earn education awards is not supported. We therefore
questioned $18,900 of education awards for these members.

The AmeriCorps Education Award Program Provisions Section B.8.a., Terms of Service,
Program Requirements, states that to be eligible for an education award:

       •       full-time members must serve at least 1,700 hours;
       •       half-time members must serve at least 900 hours;
       •       reduced half-time members must serve at least 675 hours;
       •       quarter-time members must serve at least 450 hours; and
       •       minimum time members must serve at least 300 hours.

USVI did not have procedures in place to verify the accuracy of hours recorded in WBRS and on
timesheets or to ensure that member timesheets were maintained. USVI could not explain several
discrepancies between hours recorded on the timesheets and entered in WBRS or why timesheets
were duplicated. It appears that USVI did not monitor its Kentucky office to ensure compliance
with AmeriCorps requirements.

AmeriCorps requirements do not specifically address timesheet procedures. It is, however, good
business practice to initial changes, make corrections without pencil or whiteout, sign and date
documents, and check the accuracy of hours recorded on timesheets. Without procedures to
verify member activities or timesheet accuracy, the potential exists that members may receive
unearned education awards.

d.     USVI improperly awarded education awards to 14 members who left the program
       early.

Fourteen members were released early and incorrectly received partial education awards. These
members withdrew from the program to attend school, due to financial hardship, and for other
reasons, but USVI had no documentation of the circumstances for the members exiting early,
compelling or otherwise. We therefore question $27,301 of education awards for these members.

AmeriCorps Education Award Program Special Provisions, Section 9.a, Release from
Participation, Compelling Circumstances, states:

     Compelling personal circumstances do not include leaving a program:
     • To enroll in school;
     • To obtain employment, other than in moving from a welfare to work or in leaving a
     program that includes in its approved objectives the promotion of employment among
     its members; or
     • Because of dissatisfaction with the program.

If the member resigns for any of these reasons or other reasons that are within his or her control,
the individual should receive no portion of the AmeriCorps education award. The member has

                                                6
the primary responsibility for demonstrating that compelling personal circumstances prevent the
member from completing the term of service.

In some cases, USVI did not maintain documentation to support the circumstances or its decision
to grant education awards. USVI did not have procedures to ensure that reasons for early
releases, with prorated education awards, were proper or that the reasons for early release were
properly documented. Without such procedures, members may earn partial education awards
contrary to grant provisions and regulations.

According to 45 CFR § 2522.230, Under what circumstances may AmeriCorps participants be
released from completing a term of service, and what are the consequences?, a program must
document the basis for any determination that compelling personal circumstances prevent a
participant from completing a term of service.

e.       USVI entered nine members into WBRS after the grant was completed.

USVI did not enter nine members into the Corporation’s Web-Based Reporting System (WBRS)
within 30 days of member service start dates. Nine members were entered in WBRS after their
service period was complete. They were input into WBRS sometime after September 2004, the
period when the Corporation reviewed the grant for close-out purposes. We note that the grant
end date was modified to August 31, 2004. One of these members did not have any timesheets;
one signed the member contract in 2006; another had reproduced timesheets with different dates
while all other data was identical; and we were told by USVI that its California AmeriCorps
Program Director was instructed to place another member into WBRS without any paperwork,
which was later produced. We have no confidence that these members met their service
requirements and, therefore, we questioned $39,616 of education awards for these members.

AmeriCorps Education Award Program Special Provisions, Section 16.d.i., AmeriCorps Member
Related Forms, Enrollment Forms, requires enrollment forms to be submitted no later than 30
days after the member is enrolled.

USVI officials stated that member contracts, timesheets and other records were missing due to the
abrupt closing of their Kentucky office, and that the members and their supervisors reproduced
these documents after determining that they could not locate the originals. However, this
explanation does not explain why the members were not placed in WBRS at the start of their
service and not entered into WBRS until after their service was purportedly complete.

Recommendation: We recommend that the Corporation:

     •   Disallow, and if already used, recover education awards awarded to the ineligible
         member, members with insufficient service hours, members without timesheets that
         support the service hours required to earn an award, and members who lacked
         documented compelling personal circumstances to exit the program.




                                               7
   •   Require USVI to develop and implement policies and procedures for verifying the
       accuracy and reasonableness of service hours reported on timesheets, and to ensure that
       member files are maintained as required.

   •   Require USVI to develop and implement policies and procedures to ensure compliance
       with grant requirements for documenting decisions to grant partial education awards to
       members who leave for compelling personal circumstances.

USVI’s Response:

USVI’s response indicates that it is aware of AmeriCorps member requirements and of proper
procedures for verifying the accuracy and reasonableness of service hours. USVI also states that
the program was administered from an office in Kentucky and, unlike other AmeriCorps
programs, the Program Director could not meet personally with members to obtain paperwork. It
noted that the program staff is knowledgeable of AmeriCorps requirements but the placement
sites, although trained and instructed, did not follow through with program requirements.

USVI did not provide a specific response to finding 2a.

For finding 2b, USVI states that five of the six member contracts were not signed, prior to the
initiation of service, due to the remote location of the Program Director’s office, and that the
signatures were obtained when it was determined that they were late. For the sixth member,
USVI stated it was merely a mistake that the contact was never signed, but that all of the
members served.

USVI provided individual responses for each of the six questioned education awards that lacked
support in finding 2c. USVI agreed that policies were not followed, that duplicate signatures
existed (Members #1, #3, #4 and #5), and that timesheets for another member were all prepared
on the same day. However, USVI explains that these discrepancies were done for efficiency
purposes, and that the members served. USVI agrees that the timesheet hours were less than the
WBRS hours for Member #2, and that timesheets for Member #6 incorrectly represented the
service hours. USVI states that these two members also served.

USVI states, in finding 2d, that documentation with the reasons for each member’s departure
exists in the member files.

Regarding the nine members who were entered late in WBRS, finding 2e, USVI states that: 1) the
Corporation, recognizing that the service requirements were met, instructed USVI to enroll the
members into WBRS; 2) it is incorrect that one member does not have any timesheets; and 3)
timesheets and paperwork were provided to the auditor during fieldwork.

USVI notes that errors were made but that documentation exists to support the members’
eligibility and service hours; thus the education awards and interest forbearance payments should
not be disallowed.



                                                8
Auditors’ Comments:

USVI is responsible for ensuring that the laws, regulations and grant provisions are followed.
Although personnel at the placement sites were trained on AmeriCorps member requirements,
monitoring throughout the grant cycle should have alerted USVI to the documentation issues
during grant performance.

For finding 2b, the AmeriCorps Provisions state that members are not considered enrolled until
the contract is signed, therefore service hours recorded prior to signing the contract should not be
counted toward member education awards.

USVI did not provide additional records to address the questioned education awards for the six
members questioned in 2c. Although the members may have served, without the required
timesheets with the appropriate member and supervisory signatures, we have no evidence that the
members served the required hours to earn an education award.

USVI’s response to finding 2d was general and did not address the improper partial awards.
While documentation may exist in the member files, the documentation was insufficient to
support the partial education award. For example, AmeriCorps Provisions specifically do not
allow partial awards for members to enroll in school. The USVI response did not explain why
partial awards were granted to members in these instances.

In response to the nine members whose education awards are questioned in finding 2e: 1) the
Corporation’s guidance to USVI was based on the fact that the two members met their service
requirements and were not entered into WBRS in a timely manner. The Corporation was
unaware of the other facts involving these members. For example, the USVI AmeriCorps
Program Officer informed our office that a member contacted her after the grant was terminated
and wished to serve a second term, but had not yet enrolled. The AmeriCorps Program Officer
informed her that it was too late to enroll. The Program Officer informed our office that “the
paperwork magically appeared and the member was subsequently enrolled.” We do not believe
that the Corporation was aware of this, and other facts, when it advised USVI to enroll these
members; 2) one member’s timesheets was not provided to the auditor for the second period of
service, only the timesheets for the first period of service were provided; and 3) while it is true
that timesheets and miscellaneous other paperwork was provided to the auditor, the
documentation provided to the auditor is insufficient because, for example, timesheets were dated
two years after the service was purportedly performed and, in another example, included
duplicated signatures.

USVI’s response does not adequately explain why the members were not placed in WBRS prior
to their service, or anytime during their service, as were the hundreds of other USVI AmeriCorps
members who served. AmeriCorps Special Provisions require that grantees notify the
Corporation within 30 days of a member’s enrollment. This did not occur. In summary, USVI
did not provide documentation that changed our findings or recommendations.




                                                 9
EXIT CONFERENCE

We conducted an exit conference with USVI and Corporation representatives on June 1, 2007.
Following that conference, a draft of the report was issued to both USVI and the Corporation for
comment. Their responses to the draft report are included as Appendices B and C, respectively,
of the final report.




(signature on file)
_______________________________________

Carol Bates, Assistant Inspector General for Audit




                                               10
      APPENDIX A

AGREED-UPON PROCEDURES
                                    APPENDIX A
                              AGREED-UPON PROCEDURES


We originally sampled 51 USVI members, using National Trust member rosters obtained
from the Corporation, and expanded the sample to include all 24 of the members who earned
partial education awards. We performed the following procedures:

       •      Verified that contracts were signed by members.

       •      Verified that timesheets supported member eligibility to earn education
              awards and verified that member service hours reported in WBRS agreed with
              hours recorded on member timesheets.

       •      Verified eligibility for education awards for those members released for
              compelling personal circumstances.

       •      Verified that member timesheets, forms, and contracts were in member files
              and were signed, dated, and did not contain discrepancies.

       •      Verified that the USVI drawdowns were accurate


Our fieldwork was performed from January 2007 to March 2007. Our agreed-upon
procedures engagement covered grant activity from the date of the award through August 31,
2004. We conducted exit conferences with USVI and the Corporation on June 1, 2007. We
conducted our agreed-upon procedures engagement in accordance with generally accepted
government auditing standards, issued by the Comptroller General of the United States.
                   APPENDIX B

USVI’S RESPONSE TO AGREED-UPON PROCEDURES REPORT
                      APPENDIX C

CORPORATION’S RESPONSE TO AGREED-UPON PROCEDURES REPORT
